No. 21-____
IN THE

Supreme Court of the United States
————
TYRONE CHRISTOPHER THOMPSON,
v.

Petitioner,

STATE OF ALABAMA,
Respondent.
————
On Petition for a Writ of Certiorari to the
Alabama Court of Criminal Appeals
————
PETITION FOR A WRIT OF CERTIORARI
————
ADAM B. BANKS
Counsel of Record
IAN A. MOORE
JENNIFER LAU
WEIL, GOTSHAL & MANGES LLP
767 Fifth Avenue
New York, NY 10153
(212) 310-8000
adam.banks@weil.com
Counsel for Petitioner
Tyrone Christopher Thompson
October 12, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

i
QUESTION PRESENTED
Tyrone Christopher Thompson was convicted of
capital murder and sentenced to a term of life without
parole.
The question presented is:
Does precluding a defendant from presenting any
evidence of an affirmative defense of mental disease
or defect to a jury based solely on conflicting expert
testimony at a pre-trial hearing violate the Fourteenth Amendment’s guarantee that an accused have
a meaningful opportunity to present a complete defense.

ii
PARTIES TO THE PROCEEDINGS BELOW
The Petitioner is Tyrone Christopher Thompson.
The Respondent is the State of Alabama. Because Petitioner is not a corporation, a corporate disclosure
statement is not required under Supreme Court Rule
29.6.

iii
TABLE OF CONTENTS
QUESTION PRESENTED........................................ i
PARTIES TO THE PROCEEDINGS BELOW ........ ii
TABLE OF AUTHORITIES ..................................... v
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS ................................... 2
STATEMENT OF THE CASE ................................. 2
A.

Pre-trial Proceedings ..................................... 3

B.

Trial Proceedings ........................................... 9

C.

Alabama Court of Criminal Appeals
Decision ........................................................ 10

REASONS FOR GRANTING THE PETITION .... 11
I.

Federal Courts Are Divided Regarding
Whether Evidence Relevant to an
Insanity Defense Can Be Excluded as
Insufficient Before Being Presented to a
Jury .............................................................. 11

II.

Mr. Thompson’s Case Presents an
Important Question of Federal Law ........... 16

III.

Mr. Thompson Was Deprived of Due
Process by Being Precluded from Raising
an Affirmative Defense of Mental
Disease or Defect Based Solely on
Conflicting Expert Testimony at a Pretrial Hearing ................................................ 18

CONCLUSION ....................................................... 26

iv
APPENDIX A: Opinion of the Alabama Court of
Criminal Appeals, Thompson v. State, No. CR-181161 (Ala. Crim. App. Jan. 29, 2021) .................... 1a
APPENDIX B: Opinion of the Alabama Court of
Criminal Appeals Denying Petition for Rehearing,
(Ala. Crim. App. Mar. 12, 2021)............................ 31a
APPENDIX C: Order of the Alabama Supreme
Court, Denying Petition for a Writ of Certiorari,
(Ala. May 14, 2021) ............................................... 32a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Atkins v. Virginia,
536 U.S. 304 (2002) ..................................... 3, 4, 5
Bowen v. State,
386 So. 2d 489 (Ala. Crim. App. 1980) ....... 17, 22
Boykins v. Wainwright,
737 F.2d 1539 (11th Cir. 1984), cert.
denied, 470 U.S. 1059 (1985) .....................passim
Chambers v. Mississippi,
410 U.S. 284 (1973) ........................................... 16
Crane v. Kentucky,
476 U.S. 683 (1986) ..................................... 12, 16
Dunaway v. State,
746 So. 2d 1021 (Ala. Crim. App. 1998) ........... 23
Dusky v. United States,
295 F.2d 743 (8th Cir. 1961) ............................. 23
Foust v. State,
414 So. 2d 485 (Ala. Crim. App. 1982) ............. 23
Holmes v. South Carolina,
547 U.S. 319 (2006) ............................... 11, 12, 16
Kahler v. Kansas,
140 S. Ct. 1021 (2020) ................................. 12, 17

vi
Lewis v. State,
27 So. 3d 600 (Ala. Crim. App. 2008) ............... 22
Lewis v. State,
380 So. 2d 970 (Ala. Crim. App. 1979) ....... 17, 22
Rock v. Arkansas,
483 U.S. 44 (1987) ............................................. 16
United States v. Hammond,
598 F.2d 1008 (5th Cir. 1979) ..................... 12, 13
United States v. Haymond,
139 S. Ct. 2369 (2019) ....................................... 18
United States v. Keen,
96 F.3d 425 (9th Cir. 1996) ................... 13, 14, 15
United States v. Owens,
854 F.2d 432 (11th Cir. 1988) ........................... 14
United States v. West,
962 F.2d 1243 (7th Cir. 1992) ........................... 15
United-States v. Whitehead,
896 F.2d 432 (9th Cir. 1990) ............................. 14
Wilson v. State,
387 So. 2d 226 (Ala. Crim. App. 1980) ............. 22
Ex parte Woodall,
730 So. 2d 652 (Ala. 1998) ................................ 25
CONSTITUTIONAL PROVISIONS, STATUTES & RULES
28 U.S.C. § 1257(a) ................................................... 2

vii
Ala. Code § 13A-3-1(a) ........................................ 2, 18
Ala. Code § 13A-6-2(a)(1) ....................................... 25
Ala. R. Crim. P. 24.................................................. 10

1

PETITION FOR A WRIT OF CERTIORARI
Tyrone Christopher Thompson respectfully petitions for a writ of certiorari to review the judgment of
the Alabama Court of Criminal Appeals.
OPINIONS BELOW
The opinion of the Alabama Court of Criminal Appeals, Thompson v. State, No. CR-18-1161 (Ala. Crim.
App. Jan. 29, 2021), has not yet been reported and is
attached as Appendix A. The order of the Alabama
Court of Criminal Appeals overruling petitioner’s application for rehearing, Thompson v. State, No. CR18-1161 (Ala. Crim. App. Mar. 12, 2021), is unreported
and is attached as Appendix B. The order of the Alabama Supreme Court denying a petition for a writ of
certiorari to review the judgment of the Alabama
Court of Criminal Appeals, Ex parte Thompson, No.
1200442 (Ala. May 14, 2021), is unreported and attached as Appendix C.
JURISDICTION
The opinion of the Alabama Court of Criminal Appeals was issued on January 29, 2021. That court
overruled a timely application for rehearing on March
12, 2021. The Alabama Supreme Court denied Mr.
Thompson’s timely Petition for Writ of Certiorari to
the Alabama Court of Criminal Appeals on May 14,
2021. This Court’s Order on March 19, 2020 extended
the deadline to file any petition for writ of certiorari
due on or after the date of the order by 150 days. This

2
Court has jurisdiction pursuant to 28 U.S.C. §
1257(a).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Fourteenth Amendment to the United States
Constitution provides in pertinent part: “No State
shall . . . deprive any person of life, liberty, or property, without due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.”
Ala. Code § 13A-3-1(a) provides in pertinent part:
“It is an affirmative defense to a prosecution for any
crime that, at the time of the commission of the acts
constituting the offense, the defendant, as a result of
severe mental disease or defect, was unable to appreciate the nature and quality or wrongfulness of his
acts.”
STATEMENT OF THE CASE
This case presents important constitutional questions regarding the propriety of prohibiting the defense from presenting any evidence of an affirmative
defense of mental disease or defect1 based solely on
conflicting expert testimony at a pre-trial hearing.

This defense was previously referred to as the insanity defense.
Accordingly, the terms are herein used interchangeably.
1

3
A.

Pre-trial Proceedings

On April 20, 2011, an Anniston, Alabama teacher
named Kevin Thompson went missing.2 Three nights
later, authorities found his body, stabbed to death and
with serious cuts, abrasions, and bruises, off the embankment of a highway. (R. 1165:3-21; 1169:4-6.)3 On
May 13, 2011, local authorities arrested Tyrone
Thompson in connection with Kevin Thompson’s
death. (C. 38.) That same day, Tyrone Thompson was
indicted on two counts of capital murder, namely murder in the course of a kidnapping and murder in the
course of a robbery. (C. 37.) Sometime later, Mr. Jovon
Gaston and Mr. Nicholas Smith were arrested and
similarly charged as co-defendants. (See R. 998:1113.) On June 27, 2011, Mr. Thompson notified the trial
court of “his intent to pursue a special plea of not
guilty by reason of insanity.” (C. 53.)
On August 14, 2014, defense counsel filed an ex
parte motion for the appointment of an expert to assist in determining whether Mr. Thompson suffers
from an intellectual disability, in order to prepare an
Atkins4 defense. (C. 381-403.) Over the course of the
next year, on three separate occasions, the trial court

2

No relation to the defendant, Mr. Thompson.

“C.” denotes the clerk’s record; “R.” denotes the reporter’s transcript; “S.” denotes the reporter’s supplemental transcript, which
is a revised transcript of the July 9, 2019 pre-trial hearing and
replaces pages 629 through 813 of the original reporter’s transcript.
3

Atkins v. Virginia, 536 U.S. 304 (2002) (holding that executing
people with intellectual disabilities violates the Eighth Amendment’s ban on cruel and unusual punishment).
4

4
denied Mr. Thompson the appointment of his own expert for psychological evaluation. Each time, Mr.
Thompson filed a petition for writ of mandamus to the
Alabama Court of Criminal Appeals, and each time,
the Alabama Court of Criminal Appeals reversed or
vacated the trial court’s denial.
First, on October 20, 2014, over the defense’s objections, the trial court permitted the State to attend
a hearing and present evidence and argument against
defense counsel’s ex parte motion. (R. 165:24-167:13.)
Three days later, the trial court denied Mr. Thompson
motion, finding that he had failed to make a preliminary showing that he required an Atkins expert.
(C. 485-93.) The defense petitioned for mandamus because the State should not have been present at the
hearing. The Alabama Court of Criminal Appeals
agreed and, on February 19, 2015, directed the trial
court to hold an ex parte hearing. Ex parte Sealed
Case, Calhoun Circuit Court No. CC-11-491, Order
(Feb. 19, 2015).
Second, on March 12, 2015, the trial court held the
ordered ex parte hearing (R. 346:9-16), but the trial
court once again denied the defense’s request for an
expert, finding that Mr. Thompson had failed to make
a preliminary showing that he suffered a mental disability. (See C. 535.) On April 21, 2015, the defense
again petitioned for mandamus, requesting that the
Alabama Court of Criminal Appeals order the trial
court to grant the defense’s motion for funds for a
mental health expert. On July 23, 2015, the Alabama
Court of Criminal Appeals ruled that Mr. Thompson
had shown that expert expenses were warranted, (C.
535-36), and directed the trial court to grant the defense’s motion.

5
Third, on October 26, 2015, the defense submitted
an ex parte motion for the appointment and funding
of Dr. Carol Walker as its expert, but on January 26,
2016, the trial court instead ordered that the State’s
expert, Dr. Glen King, perform the evaluation. (C.
550.) On April 6, 2016, the defense filed a third petition for mandamus, asking for funding for and appointment of Dr. Carol Walker. On April 11, 2016, the
trial court amended its order to direct Taylor Hardin
Secure Medical Facility, an Alabama State hospital
and maximum security forensic facility, to perform
the evaluation. (C. 551.) On the same day, the trial
court granted the defense’s motion to appoint and
fund Dr. Carol Walker as an expert. On November 8,
2017, the Alabama Court of Criminal Appeals vacated
the trial court’s order that Taylor Hardin Secure Medical Facility perform the evaluation. Ex parte Sealed
Case, Calhoun Circuit Court No. CC-11-491, Order
(Nov. 8, 2017). Given that the trial court had “finally
granted” funding for Dr. Walker, the Alabama Court
of Criminal Appeals found the defense’s remaining request moot. Id. at 3.
Relying on Dr. Walker’s expert report, on July 20,
2018, the defense moved to prohibit the death penalty
under Atkins based on Mr. Thompson’s intellectual
disability. (C. 638-42; see also C. 643-84.) On December 3, 2018, the State’s expert Dr. King completed his
expert evaluation, finding that, inter alia, Mr. Thompson’s IQ is between 56 and 59, Mr. Thompson’s IQ
places him in “the lowest 1% with regard to intellectual ability relative to his same age peers,” (C. 86371), and Mr. Thompson suffered from an intellectual
disability (C. 871). On December 21, 2018, the defense
amended and renewed its motion to prohibit the death
penalty in light of the findings of the State’s expert.

6
(C. 872-77; see also C. 878-83.) On January 7, 2019,
the parties stipulated to remove the death penalty as
a potential punishment because Mr. Thompson suffered from a significant intellectual disability. (C. 89398; see also (C. 957-58 (order granting motion for judicial finding of intellectual disability).)
On May 6, 2019, the State filed a motion in limine
to “preclude testimony on the Defendant’s intellectual
disability and/or mental illness,” which the defense
opposed. (C. 940; C. 951-56.) The trial court heard the
State’s motion on May 22, 2019, and scheduled a pretrial evidentiary hearing on July 9, 2019, to determine
whether the defense could present evidence of Mr.
Thompson’s defense of not guilty by reason of severe
mental disease of defect. (See C. 950.)
Both experts testified—and agreed—that Mr.
Thompson had a “mental defect” at the time of the alleged crime. (See C. 1140-42.) The State’s expert also
opined on the ultimate issue of mental disease or defect and whether Mr. Thompson appreciated the
wrongfulness of his actions: “Q. And so that second
prong is not met, and your opinion as an expert, there
is no mental disease or defect defense available to him
under that circumstance, correct? A. That would be
my opinion, yes.” (S. 702:17-21.) Mr. Thompson’s expert, on the other hand, testified only as to the character of Mr. Thompson’s mental disability, not
whether the defense should be available to him because she believed that that question was best suited
for the jury. (S. 784:5-14 (“Q. Now, I am not asking
you to give an opinion, but I’m asking you, the second
prong the judge is going to rule on, what are y’all
taught as to that opinion? A. It is for the trier of fact

7
to make the decision, and while people very often render assistance to the trier of fact, there is specific areas that should be evaluated, and we’re told basically
if to steer clear of those kinds of situations.”).) No lay
witnesses testified at the hearing.
After hearing from the two experts, the Court
ruled from the bench that Mr. Thompson would not be
able to raise a defense of mental disease or defect to
the jury. The Court credited Dr. King’s testimony but
did not discuss Dr. Walker’s conflicting testimony or
expert report.
[T]he testimony before the Court by Dr.
Glenn King was that the defendant did
understand the nature of the offense,
and the quality of his acts.[5] His testimony is that the offense was premeditated.[6] Dr. King’s testimony was that
the offense was goal directed. Dr.

Dr. Walker testified that Mr. Thompson “is very concrete in his
interactions” and that “[h]e does not think abstractly.” (S. 76970.) “Concrete is a parent tells a child be good. Good is abstract.”
Id. “[Dr. Walker:] [O]ne of the more interesting conversations I
had with him was when he could not understand why he was
terminated from a job for showing up late. He thought he should
have been able to just complete a shift and move on. So he didn’t
have that ability to think forward to how that might affect his
coworkers and that sort of thing.” (S. 771.)
5

“Q. And how did he score - and you may have answered this,
and I apologize for the repeat. But how did he score in the area
of planning? [Dr. Walker:] Well, remember I had told you that
there is not one that specifically measures planning. It is the
ability to focus your attention and to solve problems. So his
scores - let me go to those. His scores were overall in the range
that you would expect given his IQ.” (S. 782:2-11.)
6

8
King’s testimony was that the defendant avoided apprehension.[7] Dr. King
testified that all of these factors indicated that Tyrone Thompson understood the wrongfulness of his conduct.
So, based on all of the evidence and the
law, it is clear to the Court that from
the evidence, the defendants have not
proven by that required burden of
proof, clear and convincing evidence,
that the defendant - that the mental defect cause the defendant to act so that
he could not understand the wrongfulness of his conduct.
So the evidence of Insanity will not go
to the jury. It will not be an issue for
the jury to decide, and any evidence of
the moderate mental retardation or intellectual disability will not be presented to the jury in any form or fashion.
(S. 810:3-811:2.) The trial court did not address the
conflicting testimony of Dr. Walker in the order following the hearing. (C. 1140-42 (neither citing to nor
discussing Dr. Walker’s testimony addressing the second prong).)
The next day, the trial court issued an order denying Mr. Thompson’s plea of not guilty by reason of
Dr. Walker explained in her report that “[c]onsistent with the
capabilities of an 8-11 year-old child, an individual with mild [intellectual disability] can hide facts when they perceive it to be to
their advantage or the advantage of others.” (C. 959-89 at 979.)
Dr. Walker’s report was entered into evidence at the hearing. (S.
776.)
7

9
mental disease or defect and prohibiting the defense
from directly or indirectly presenting any issue of
mental disease or defect to the jury. (Id.) The decision
stated that Mr. Thompson failed to “prove” his affirmative defense by a showing of “clear and convincing
evidence” before submitting any evidence of it to the
jury. (Id.) Mr. Thompson filed a motion to reconsider
the court’s ruling, which was denied. (R. 965-967.)
B.

Trial Proceedings

Mr. Thompson’s nine-day jury trial began on August 19, 2019. (See R. 816:20.) Consistent with the
trial court’s pre-trial order, Mr. Thompson did not present any evidence regarding his mental disease or defect.
At trial, the State’s evidence showed that Kevin
Thompson left home or was abducted on April 20th,
was robbed, was bound in duct tape, and was driven
to an embankment where he was killed. Later, his car
was stripped of his possessions, some of which were
pawned.
On August 29, 2019, the State concluded the
presentation of its case. Despite the presentation of
the testimony of sixty-three witnesses and a ten-anda-half hour video recording of Tyrone’s interviews
with the police, (see R. 2667:15-20, 2671:12.), the
State’s evidence only established that 1) Mr. Thompson introduced the co-defendants to the victim; 2) Mr.
Thompson was present at the robbery; 3) Mr. Thompson remained with the co-defendants that evening; 4)
Mr. Thompson did not contact the police; and 5) Mr.
Thompson remained in contact with the co-defendants
after that night. The State did not present any evidence suggesting that Mr. Thompson was an active

10
participant or derived any benefit from Kevin Thompson’s murder.
After the State rested, Mr. Thompson filed a motion for acquittal, arguing, inter alia, that the trial
court the decision, based on conflicting expert testimony, to preclude Mr. Thompson from putting forth
any evidence of mental disease or defect, denied him
of his right to a fair trial (C. 1080-88; see R. 2627:2022, 2630.) This motion was denied. (R. 2639:152641:24.)
That same day, the jury convicted Tyrone Thompson of one count of murder during kidnapping in the
first degree and one count of murder during a robbery
in the first degree (R. 2747:3-12), and the trial court
sentenced Mr. Thompson to life imprisonment without the possibility of parole, in addition to certain
fines. (R. 2750:7-20.)
C.

Alabama Court of Criminal Appeals Decision

On September 4, 2019, Mr. Thompson filed a motion for a new trial (C. 1158), which was denied by operation of law sixty days later (Ala. R. Crim. P. 24).
Mr. Thompson timely appealed.
On appeal, Mr. Thompson argued that the decision made at the pre-trial hearing to preclude him
from presenting any evidence of his affirmative defense of not guilty by reason of mental disease defect
at trial violated his right to Due Process, and made
the judge—rather than the jury—the finder of fact.
The Alabama Court of Criminal Appeals affirmed
the conviction. The court of appeals found that the

11
trial court had applied the incorrect legal standard to
determine if Mr. Thompson’s mental defect rendered
him unable to appreciate the nature and quality or
wrongfulness of his actions. Pet. App. 13a (noting that
“the circuit court used the ‘clear and convincing’
standard instead of the applicable ‘some evidence’
standard”). Nonetheless, the court of appeals found
that the error was harmless because 1) Mr. Thompson
“did not present evidence sufficient to submit a defense of not guilty by reason of mental disease or defect to the jury” and 2) “Thompson has made no specific showing of evidence that he was unable to present prior to trial.” Pet. App. 15a.
On February 26, 2021, Mr. Thompson petitioned
the Alabama Court of Criminal Appeals for a rehearing, which was overruled on March 12, 2021. Pet. App.
31a. On March 26, 2021, Mr. Thompson timely petitioned the Alabama Supreme Court for a writ of certiorari. On May 14, 2021, the Alabama Supreme Court
denied the petition. Pet. App. 32a. This petition for a
writ of certiorari follows.
REASONS FOR GRANTING THE PETITION
I.

Federal Courts Are Divided Regarding
Whether Evidence Relevant to an Insanity
Defense Can Be Excluded as Insufficient
Before Being Presented to a Jury

“Whether rooted directly in the Due Process
Clause of the Fourteenth Amendment or in the Compulsory Process or Confrontation Clauses of the Sixth
Amendment, the Constitution guarantees criminal
defendants ‘a meaningful opportunity to present a
complete defense.’ ” Holmes v. South Carolina, 547

12
U.S. 319, 324 (2006) (quoting Crane v. Kentucky, 476
U.S. 683, 690 (1986)). “The right to present witnesses
in one’s own defense in a criminal trial lies at the core
of the Fifth and Fourteenth Amendments’ guarantee
of due process of law.” Boykins v. Wainwright, 737
F.2d 1539, 1544 (11th Cir. 1984) (collecting cases),
cert. denied, 470 U.S. 1059 (1985). “[V]iolation of the
constitutional guarantee that an accused be able to
present witnesses in his own defense is prejudicial per
se.” Id. at 1545 n.2 (citing United States v. Hammond,
598 F.2d 1008, 1013 (5th Cir. 1979)).
Just as critically, the availability of an insanity
defense is firmly entrenched in the historical tradition
and common law. As this Court recently explained,
“for hundreds of years jurists and judges have recognized insanity (however defined) as relieving responsibility for a crime.” Kahler v. Kansas, 140 S. Ct. 1021,
1030 (2020). Indeed, insanity, as a “principle of nonculpability appeared in case after case involving allegedly insane defendants, on both sides of the Atlantic.”
Id.
Yet, there is a split among federal courts, including at least the Eleventh Circuit and Ninth Circuit,
regarding whether these principles are violated when
a defendant is precluded, based on pre-trial proceedings, from presenting evidence relevant to an insanity
defense to a jury.
The Eleventh Circuit has held that excluding expert testimony relevant to establishing an insanity defense renders the proceeding fundamentally unfair.
Boykins, 737 F.2d at 1544. In Boykins, the trial court
made an evidentiary ruling excluding expert testimony regarding the defendant’s “previous history of

13
mental illness.” Id. at 1543. The trial court ruled that
the testimony was “not relevant to [defendant’s] mental condition at the time of the offense.” Id. at 1541.
The Eleventh Circuit—while noting that it was reluctant to second-guess state court evidentiary rulings—
reversed and remanded, finding that “the trial court’s
limitation of the scope of a key defense witness’s testimony denied the petitioner the right to present witnesses in his own defense in violation of the due process clause of the Fourteenth Amendment.” Id. at
1540.
The Eleventh Circuit further held that the improper exclusion of evidence relevant to the insanity
defense is not subject to harmless error analysis. The
trial court in Boykins had held that the exclusion of
the defense’s expert’s testimony regarding insanity
was harmless error. Id. at 1545 n.2. The Eleventh Circuit, however, held that “[w]here the substantive
standard of constitutional error contains a requirement that the excluded evidence be ‘crucial, critical,
highly significant’ the harmless error doctrine is inapplicable.” Id. (emphasis added). The court cited United
States v. Hammond, from the Fifth Circuit, for the
proposition that “violation of the constitutional guarantee that an accused be able to present witnesses in
his own defense is prejudicial per se.” Id. (citing Hammond, 598 F.2d at 1013) (emphasis added). The Seventh Circuit has similarly held, in the context of an
insanity defense, that “insufficiency of evidence is not
a reason to exclude it. . . . Sufficiency was for the jury
to decide.” United States v. West, 962 F.2d 1243, 1248
(7th Cir. 1992).
In contrast to the Eleventh Circuit’s ruling in
Boykins, the Ninth Circuit has held that testimony

14
relevant to a defendant’s insanity defense can be excluded pre-trial and before it is presented to the jury
unless it meets a sufficiency test—in particular, a
“convincing clarity” standard. In United States v.
Keen, the defendant raised an insanity defense. 96
F.3d 425, 426 (9th Cir. 1996). The State filed a motion
in limine to preclude evidence of the defendant’s insanity defense based on a “lack of expert testimony in
support of the defense.” Id. The defendant relied solely
on the lay testimony of himself and of his family regarding his mental health. Id. at 430. The trial court
granted the state’s motion after a pre-trial hearing. Id.
at 426-27. The Ninth Circuit affirmed, finding that
“the proffered evidence of insanity was statutorily insufficient.” Id. at 430-31.
Although due process was not raised on appeal in
Keen, the Ninth Circuit applied a sufficiency test, articulating the following standard for determining
whether there is a sufficient quantum of evidence to
justify a jury instruction on the insanity defense:
[W]here the issue of insanity has otherwise
been properly raised, a federal criminal defendant is due a jury instruction on insanity
when the evidence would allow a reasonable
jury to find that insanity has been shown with
convincing clarity.... [T]he trial judge must
construe the evidence most favorably to the
defendant.
Id. at 430 (quoting United-States v. Whitehead, 896
F.2d 432, 435 (9th Cir.)).8 Thus, in the Ninth Circuit,
This standard was borrowed from the Eleventh Circuit’s decision in United States v. Owens. See Whitehead, 896 F.2d at 435
(citing United States v. Owens, 854 F.2d 432, 434 (11th Cir.
8

15
evidence can be excluded pre-trial if it fails to meet
the “convincing clarity” standard. Id. By contrast, the
Eleventh Circuit does not examine the sufficiency of
evidence of mental defect before allowing it to be presented to the jury. Boykins, 737 F.2d at 1540.
In this case, the Alabama Court of Criminal Appeals deepened the conflict reaching a conclusion consistent with Keen but inconsistent with Boykins. The
court of appeals endorsed a pre-trial weighing of the
sufficiency of the evidence relevant to the insanity defense before deciding whether any of it could be presented to the jury. In particular, the court affirmed
the trial court’s order excluding not only Dr. Walker’s
testimony, but any evidence relating to mental defect,
on the grounds that Mr. Thompson “did not present
evidence sufficient to submit a defense of not guilty by
reason of mental disease or defect to the jury.” Pet.
App. 15a. Under Boykins, Dr. Walker’s testimony—
along with relevant lay testimony—would have been
permitted to be presented to the jury as a matter of
Due Process.
This Court should grant certiorari to resolve this
division in the law.

1988)). In Owens, the Eleventh Circuit articulated the “convincing clarity” standard in a case in which the trial court declined
to instruct the jury on insanity at the end of trial after all evidence had been presented. Owens, 854 F.2d at 435. That ruling
is not inconsistent with the Eleventh Circuit’s ruling in Boykins.
In Keen, however, the Ninth Circuit excluded evidence relevant
to an insanity defense at the pre-trial stage on a motion in limine,
which is inconsistent with Boykins.

16
II.

Mr. Thompson’s Case Presents an Important Question of Federal Law

The question of whether a criminal defendant
may be precluded from presenting any evidence of an
affirmative defense of mental disease or defect based
solely on conflicting expert testimony at a pre-trial
hearing is of critical importance to a fair judicial process.
It is a fundamental tenet of our legal system that
a criminal defendant is guaranteed “a meaningful opportunity to present a complete defense.” Holmes, 547
U.S. at 324 (quoting Crane v. Kentucky, 476 U.S. 683,
690 (1986)). Indeed, “[f]ew rights are more fundamental than that of an accused to present witnesses in his
own defense.” Chambers v. Mississippi, 410 U.S. 284,
302 (1973).
Permitting a court to preclude any evidence of an
affirmative defense of mental disease or defect at the
pre-trial stage, based solely on conflicting expert testimony, risks undermining this crucial right. Although this Court has not addressed the validity of a
pre-trial finding, it has repeatedly recognized that the
defendant has right to present evidence in his own defense. See e.g., Rock v. Arkansas, 483 U.S. 44, 62
(1987) (state statute barring testimony by witness
with memory refreshed by hypnosis could not be applied to keep defendant from testifying); Holmes, 547
U.S. at 330-31 (defendant had constitutional right to
offer evidence that third party may have been perpetrator of crime for which defendant was charged).
It is particularly important in the context of an insanity defense that all relevant evidence be permitted

17
to come in before a ruling is made. As this Court noted
in Kahler, “[d]efining the precise relationship between
criminal culpability and mental illness involves examining the workings of the brain, the purposes of the
criminal law, the ideas of free will and responsibility.
It is a project demanding hard choices among values,
in a context replete with uncertainty, even at a single
moment in time.” 140 S. Ct. at 1037. To that end, the
Eleventh Circuit has held that “[i]n resolving the complex issue of criminal responsibility it is of critical importance that the defendant’s entire relevant symptomatology be brought before the jury and explained. . . .
This Court has frequently stressed the importance of
permitting introduction of all evidence relating to the
issue of insanity.” Boykins v. Wainwright, 737 F.2d at
1545 (emphasis in original).
Evidence of a defendant’s symptomatology is not
limited to expert testimony. Indeed, Alabama courts
have welcomed both expert and lay testimony on the
issues of “mental competency or sanity.” E.g., Lewis v.
State, 380 So. 2d 970, 977 (Ala. Crim. App. 1979).
Family members, for example, can speak to a defendant’s past behavior. Bowen v. State, 386 So. 2d 489,
490 (Ala. Crim. App.) (in which defendant’s father testified regarding his son describing hallucinations to
him and being out of touch with reality).
Moreover, excluding evidence of an insanity defense based solely on conflicting testimony at a pretrial hearing risks interfering with the jury’s constitutional role as the trier of fact. As this Court has recognized, “the right to trial by jury [is considered] ‘the
heart and lungs, the mainspring and the center
wheel” of our liberties, without which “the body must
die; the watch must run down; the government must

18
become arbitrary.’” United States v. Haymond, 139
S. Ct. 2369, 2375 (2019).
Indeed that is what happened here. The trial
court’s decision to weigh the evidence and allow the
presentation of Mr. Thompson’s affirmative defense
only if he “proved” the defense at the pre-trial hearing
improperly invaded the jury’s fact-finding role. By
choosing which expert to credit, and denying the defendant the ability to present lay witnesses regarding
his mental capacity, the court exceeded its gatekeeping function, and instead usurped the role of the jury.
This Court should thus grant certiorari to resolve
this important question.
III.

Mr. Thompson Was Deprived of Due Process by Being Precluded from Raising an
Affirmative Defense of Mental Disease or
Defect Based Solely on Conflicting Expert
Testimony at a Pre-trial Hearing

The Alabama Court of Criminal Appeal’s decision
was wrong: Denying Mr. Thompson the right to present relevant witness testimony—including lay witness testimony—to the jury in his defense denied him
his Constitutional right to due process and rendered
the proceeding fundamentally unfair.
In Alabama, “[i]t is an affirmative defense to a
prosecution for any crime that, at the time of the commission of the acts constituting the offense, the defendant, as a result of severe mental disease or defect,
was unable to appreciate the nature and quality or
wrongfulness of his acts.” Ala. Code § 13A-3-1(a).
Thus, there are two prongs to this affirmative defense:

19
(i) the defendant must have had a mental disease or
defect at the time of the commission of the alleged
acts; and (ii) the mental disease or defect must have
rendered the defendant unable to appreciate the nature and quality or wrongfulness of his acts.
It is undisputed that Mr. Thompson had a “mental
defect” at the time of the alleged crime, i.e., that the
first prong of his defense was satisfied. (C. 1141-42
(“[B]oth experts . . . indicated the Defendant had a
mental defect. The mental defect was moderate intellectual disability, which was formerly called moderate
mental retardation.”).) The parties disputed, however,
whether Mr. Thompson could have appreciated the
criminality of his conduct, i.e., whether the second
prong of his defense was satisfied.
As explained above, the state filed a motion in
limine to preclude all evidence of Mr. Thompson’s
mental disability, on the basis that the defense’s evidence was insufficient. (C. 940.) After a pre-trial hearing limited to expert testimony, the trial court granted
the State’s motion and effectively issued a directed
verdict against Mr. Thompson’s mental disease or defect defense. Notably, the trial court did not rule that
Mr. Thompson had presented no evidence of his affirmative defense but that he had “not proven by . . .
clear and convincing evidence” that the mental defect
caused Mr. Thompson not to understand the wrongfulness of his conduct.
Even the Alabama Court of Appeal found this was
wrong. Forcing a defendant to prove his affirmative
defense at a pre-trial hearing by clear and convincing
evidence as a prerequisite to presenting the issue to a

20
jury is, of course, improper. The Alabama Criminal
Court of Appeals conceded this was the incorrect
standard. (Pet. App. 13a). Nonetheless, the court
found that the error was harmless, and endorsed the
trial court’s use of a pre-trial proceeding to exclude the
mental health evidence from the jury all together. Pet.
App. 13a.
The Alabama Court of Criminal Appeal’s conclusion was erroneous in several ways that violated Mr.
Thompson’s due process guarantee to present evidence in his defense. First, the court held that there
was “no evidence” to support the defense. This was itself an improper weighing of the evidence that was
presented during the pre-trial proceeding.
The limited evidentiary record that was developed
unquestionably demonstrates that there was indeed
“some evidence” from which a reasonable jury could
infer that Mr. Thompson’s intellectual disability inhibited his understanding of the wrongfulness of his
conduct. Specifically, beyond agreement from both experts that Mr. Thompson suffered from an intellectual
disability, Dr. Walker’s report, which was entered into
evidence at the pre-trial hearing, detailed that Mr.
Thompson had impaired social skills, which include
“interpersonal skills, social responsibility, self-esteem, gullibility, naivete (wariness), and ability to follow rules/obey laws and to avoid victimization, and social problem solving.” (C. 914.) Dr. Walker testified
that Mr. Thompson’s social skill deficits impede his
ability to think abstractly, including thought that requires “a level of inference” and his understanding of

21
what it means to “be good.” (S. 769:19–770:20.)9 Dr.
Walker also testified that Mr. Thompson “could not
understand why he was terminated from a job for
showing up late” because “he didn’t have that ability
to think forward to how [his actions] might affect his
coworkers and that sort of thing.” (S. 771.)
To be sure, Dr. Walker expressly did not render a
conclusion on the ultimate issue—whether Mr.
Thompson met the second prong of the Alabama insanity test—believing that an issue for the jury to decide.10 But the court of appeals confused Dr. Walker’s
reticence to opine on the ultimate issue for a lack of
evidence. That was wrong: for the reasons just discussed, Dr. Walker’s testimony about the factual components of Mr. Thompson’s condition certainly constituted some evidence that he was unable to appreciate
the wrongfulness of his conduct. Ultimately, the
court’s conclusion of “no evidence” relied on resolving
particular conflicts in the evidence presented at the
pre-trial hearing. That is improper.

Dr. Walker testified that Mr. Thompson’s “deficits in conceptual
skills, social skills, as well as practical skills” mean that Mr.
Thompson “is very concrete in his interactions. He does not think
abstractly.” (S. 769:19–770:20.) Dr. Walker further explained the
meanings of concrete and abstract thinking: “a parent tells a
child be good. Good is abstract. Concrete is don’t kick the dog. So
it is that level of – it is making a level of inference.” (S. 770:17–
20.)
9

Dr. Walker correctly stated at the hearing that the ultimate
question of the second prong, i.e., whether Mr. Thompson was
unable to appreciate the wrongfulness of his conduct, “is for the
trier of fact” to answer. (S. 784:5-14.)
10

22
Second, and more importantly, the court’s decision to exclude all evidence after the pre-trial expert
hearing necessarily limited Mr. Thompson’s ability to
develop the record that would have supported his defense. The Alabama Criminal Court of Appeals found
that Mr. Thompson “has made no specific showing of
evidence that he was unable to present prior to trial”
and thus “has not shown how he has been prejudiced
by a pre-trial determination.” (Pet. App. 15a.) But
there can be no “specific showing” where Mr. Thompson’s case is nipped in the bud before all evidence has
been put in. Only the two experts testified at the pretrial hearing. The trial court invited no lay witness
testimony despite the fact that Dr. Walker based her
opinion and testimony in part on three different interviews with Mr. Thompson’s mother. (S. 734 (“[Dr.
Walker:] I also interviewed his mother on three different occasions.”); 750-51 (“Q. Did you find in your testing there that he had adaptive deficits? A. Yes, I did.
Q. Can you talk about that please? A. He had deficits
in essentially all domains. The interview that I did
with his mother, we looked at receptive, expressive,
and written language. All of those scores were low.”).)
In Alabama, lay witness testimony—including
from family members—is admissible in support of an
insanity defense. Lewis v. State, 380 So. 2d 970, 977
(Ala. Crim. App. 1979) (“We greatly appreciate the
value of the testimony of lay witnesses, as well as testimony of expert witnesses, on an issue as to mental
competency or sanity. The weight of each kind of evidence as compared with the other is variable. By reason of the variety of circumstances, lay testimony is
weightier at times than expert testimony, and at other
times the reverse is true.”); Bowen v. State, 386 So. 2d
489, 491 (Ala. Crim. App. 1980) (“The defense also put

23
on the non-expert, or lay testimony, of the appellant’s
father in support of the defense of insanity.”); Lewis v.
State, 27 So. 3d 600, 608 (Ala. Crim. App. 2008)
(“[L]ay opinions have been admitted as to insanity,
value, and handwriting, despite the fact that these often either constitute or coincide with the ultimate issue in the given litigation.”) (quoting C. Gamble,
McElroy’s Alabama Evidence § 127.01(6) (5th ed.
1996)). Wilson v. State, 387 So. 2d 226, 229 (Ala. Crim.
App.), (“Defendant presented considerable lay testimony of members of her family and others as to defendant’s mental as well as physical condition, some
of it constituted strong evidence of insanity; some of it
fell short of an establishment thereof.”).
In Alabama, a jury can even credit lay testimony
over that of even undisputed expert testimony in certain circumstances. “Even undisputed medical testimony concerning insanity is not conclusive on the
jury.” Foust v. State, 414 So. 2d 485, 487 (Ala. Crim.
App. 1982). Dunaway v. State, 746 So. 2d 1021, 1033
(Ala. Crim. App. 1998) (finding that, under certain circumstances, a jury may disregard an expert’s opinion
rebutted only by lay testimony), aff’d sub nom. Ex
parte Dunaway, 746 So. 2d 1042 (Ala. 1999); see also
Dusky v. United States, 295 F.2d 743, 754 (8th Cir.
1961) (“This and other courts have said that expert
opinion as to insanity rises no higher than the reasons
upon which it is based, that it is not binding upon the
trier of the facts, and that lay testimony can be sufficient to satisfy the prosecution’s burden even though
there is expert testimony to the contrary.”).
Mr. Thompson had a Constitutional right to present witnesses, including lay witnesses such as his

24
family or himself, in his own defense. If, at the conclusion of the trial, Mr. Thompson had not met his burden to raise “some evidence” in support of his defense,
the trial court could have issued a directed verdict and
taken the issue of mental disease or defect from the
jury. As the Alabama Court of Criminal Appeals conceded, a trial court “generally determines during trial
whether a defendant has met both prongs of the test
required for presentation to the jury.” Pet. App. 15a
(emphasis added).11
Finally, under the circumstances of the underlying trial in this matter, the prejudice to Mr. Thompson
of not being able to present witnesses in his defense is
heightened. On three separate occasions, the trial
court denied Mr. Thompson access to a mental health
expert to support his defense. Each time, Mr. Thompson was forced to petition for a writ of habeas corpus
to compel the trial judge to comply with binding precedent and permit Mr. Thompson an expert to support
his defense. On the eve of trial, the trial court denied
Mr. Thompson his right to a mental health expert a
fourth time, and although the court had again applied
the wrong legal standard,12 the fourth denial stuck.

Indeed, the court of appeals did not cite—and counsel has not
located—a singled published case in any Alabama court in which
evidence supporting the affirmative defense of not guilty by reason of insanity or severe mental disease or defect was precluded
wholesale from trial. Instead, in all Alabama cases where the defense was asserted, the trial court permitted the evidence that
tended to prove the affirmative defense to be presented to the
jury.
11

As noted above, the trial court applied a “clear and convincing”
standard instead of a “some evidence” standard to present the
issue to a jury. Pet. App. 13a.
12

25
Then, at trial, the evidence against Mr. Thompson
for the intentional murder of Kevin Thompson was far
from conclusive. See supra Statement of the Case. In
Alabama, conviction for intentional murder requires
the state to prove, beyond a reasonable doubt, that the
defendant had a “particularized intent to kill,” Ala.
Code § 13A-6-2(a)(1), “and that intent to kill cannot be
supplied by the felony-murder doctrine.” Pet. App. 28a
(quoting Ex parte Woodall, 730 So. 2d 652, 657 (Ala.
1998)) (emphasis added).
There was no physical evidence tying Mr. Thompson to the murder weapon, or the victim’s injuries. Instead, the State relied on circumstantial evidence of
Mr. Thompson’s inaction. That evidence was exceedingly weak. As the Alabama Court of Criminal Appeals itself summarized it:


“Mr. Thompson called Kevin with whom he
was acquainted and then went to his apartment” along with the co-defendants.



The co-defendants presence “made Kevin
uncomfortable.”



“Thompson was shown to be present at one
of the ATMs when Kevin’s debit card was
used while Kevin was being held at gunpoint in his vehicle.”



“Thompson remained with the men as the
men drove Kevin out of town” and did not
“render aid to Kevin.”



Thompson “never contacted the police.”

Pet. App. 29-30a.

26
In short, the evidence showed that Mr. Thompson
did not call the police and remained with the co-defendants throughout the night (R. 2661-62, 67.) That
was the sum of the evidence supposedly establishing
that Mr. Thompson “had a particularized intent to
kill.” Pet. App. 28a; Ala. Code § 13A-6-2(a)(1). Disarmed of his principal defense, Mr. Thompson was
convicted of murder on this thin circumstantial evidence and sentenced to life in prison without the possibility of parole.
CONCLUSION
For the foregoing reasons, this Court should grant
a writ of certiorari to review the judgment of the Alabama Court of Criminal Appeals.

Respectfully submitted.
ADAM B. BANKS
Counsel of Record
IAN A. MOORE
JENNIFER LAU
WEIL, GOTSHAL & MANGES LLP
767 Fifth Avenue
New York, NY 10153
(212) 310-8000
adam.banks@weil.com
Counsel for Petitioner
OCTOBER 12, 2021

APPENDIX

APPENDICES
A.

Alabama Court of Criminal Appeals, Opinion
affirming conviction and sentence, Thompson v.
State, No. CR-18-1161 (Ala. Crim. App. Jan. 29,
2021).

B.

Alabama Court of Criminal Appeals, denying
petitioner’s application for rehearing, Thompson v. State, No. CR-18-1161 (Ala. Crim. App.
Mar. 12, 2021).

C.

Alabama Supreme Court, Order denying a petition for a writ of certiorari, Ex. Parte Thompson, No. 1200442 (Ala. May 14, 2021).

1a
APPENDIX A
Notice: This unpublished memorandum should not be
cited as precedent. See Rule 54, Ala. R. App. P. Rule
54(d) states, in part, that this memorandum “shall
have no precedential value and shall not be cited in
arguments or briefs and shall not be used by any court
within this state, except for the purpose of establishing
the application of the doctrine of law of the case,
res judicata, collateral estoppel, double jeopardy, or
procedural bar.”
ALABAMA COURT OF CRIMINAL APPEALS
REL: January 29, 2021
————
CR-18-1161
————
TYRONE CHRISTOPHER THOMPSON
v.
STATE OF ALABAMA
————
Appeal from Calhoun Circuit Court CC-11-491
————
MEMORANDUM DECISION
WINDOM, Presiding Judge.
Tyrone Christopher Thompson appeals his capitalmurder convictions and sentences of life in prison
without the possibility of parole.1 Thompson was con1

Before trial, the trial court determined that Thompson was
intellectually disabled and, therefore, not eligible for the death
penalty. See Atkins v. Virginia, 536 U.S. 304 (2002).

2a
victed of murder made capital for intentionally killing
Kevin Thompson during a kidnapping, see § 13A-540(a)(1), Ala. Code 1975, and for intentionally killing
Kevin Thompson during a robbery, see § 13A-5-40
(a)(2), Ala. Code 1975.2
On the night of April 20, 2011, Thompson and Javon
Gaston were at a friend’s house in Anniston with
Gaston’s brother, Patrick Watkins, and Tyrone’s
girlfriend, Cheryl Bush. After leaving their friend’s
house that night, Thompson and Gaston took Bush
and Watkins to their homes. Thompson then telephoned Kevin Thompson at 9:34 p.m., 9:35 p.m., and
9:52 p.m. According to Kevin’s sister, Rena Curry,
Kevin had known Thompson for several years and
had often helped Thompson; however, Rena did not
consider the relationship to be a particularly close
one. Cell-phone records indicated that Thompson’s
and Gaston’s phones were located in Jacksonville,
Alabama, during these telephone calls. Shortly thereafter, Thompson, Gaston, and Nicholas Smith arrived
at Kevin’s apartment in Jacksonville.
At the same time the group arrived, Kevin, who was
in his apartment, was on the phone with his friend
Chris Wilkerson. Wilkerson heard someone knock on
Kevin’s door and then heard Kevin say, “I didn’t know
all these people were coming.” (R. 1046.) Kevin told
Wilkerson that he would call Wilkerson back; however, Wilkerson never heard from Kevin again.
The following morning, Kevin failed to report to
work at Wellborn Elementary School. His colleagues
became worried, and a school resource officer went
to Kevin’s apartment to check on him. The officer
contacted Kevin’s sister, Rena, who in turn contacted
2

Kevin Thompson is not related to Tyrone Thompson.

3a
their mother, Frances Curry. Rena and her mother
drove to Kevin’s apartment. The front door was unlocked
and the lights were on. Kevin was not home, and his
car, a silver, Honda Civic vehicle, was not in the parking lot. One of Kevin’s shoes was discovered outside
on the ground, and the matching shoe was found
inside Kevin’s apartment by the front door. Kevin’s
mother telephoned the police department.
Law-enforcement officials responded to the apartment complex and spoke with Kevin’s family. Concerned that law-enforcement officials were not doing
enough to locate her son, Frances continued her own
search for Kevin. She contacted Kevin’s bank and
learned that several withdrawals had been made
from Kevin’s account the previous night at various
automatic-teller machines (“ATM”). Frances contacted
the local police department to inform them of the
unusual bank-account activity.
Law-enforcement officers obtained surveillance
footage from the credit unions and banks located in
the Anniston and Jacksonville areas where the withdrawals had been made from Kevin’s account. Kevin’s
debit card was first used at 10:19 p.m. on April 20,
2011, at a drive-up ATM in Jacksonville. The surveillance footage revealed men in Kevin’s vehicle at the
ATM. The driver, later identified as Nicholas Smith,
wore a baseball cap with the letter “A,” and the passenger, later identified as Javon Gaston, was holding
a rifle pointed toward the backseat at an individual
thought to be Kevin. Smith made several attempts to
withdraw money before he succeeded. Smith was eventually able to make four successive $100 withdrawals,
leaving a balance of approximately $80 in Kevin’s
account. The footage showed Smith passing money to
Gaston, who passed it to someone in the backseat.

4a
After leaving the bank, Smith drove to the drive-up
ATM at the Fort McClellan Credit Union. Photographs
from the credit union showed that a silver vehicle
and a dark-colored sport-utility vehicle arrived shortly
after midnight on April 21, 2011. Smith and a second
individual were shown at the ATM. Rena was shown
the photographs from the credit-union ATM and asked
if she recognized anyone in the photographs. Rena
identified Thompson as the second man in the footage. Law-enforcement officials interviewed Thompson,
who initially denied any knowledge of Kevin’s disappearance and admitted only that he met Smith at the
credit union after Smith called to ask him how to use
a debit card at the ATM.
Meanwhile, law-enforcement officers continued to
search for Kevin and his vehicle. They located Kevin’s
vehicle when the mother of Smith’s girlfriend contacted law enforcement after finding in her garage a
silver vehicle she believed had been stolen. Smith
had taken Kevin’s vehicle to her house the night before
and had two men removing parts from it. Smith’s
girlfriend, Jessica Foster, and her friend Whitney
Ledlow searched the interior of the vehicle for anything of value. They found a credit card, a gold diamond ring, and a camera. Ledlow later pawned the
ring for $200. When Foster’s mother saw the vehicle,
she told everyone to leave.
Smith, Foster, and Ledlow left and picked up
Smith’s Ford Explorer sport-utility vehicle they had
taken to a nearby detail shop to have the interior
cleaned. John Robinson, the owner of the detail shop,
testified that, as he was cleaning the vehicle, he
noticed several red spots that may have been blood.
He, too, contacted law enforcement. After Smith,
Ledlow, and Foster picked up Smith’s Explorer, they

5a
attempted to return to Foster’s mother’s house; however, when they arrived, police were at the house.
The group did not stop and decided to leave Smith’s
Explorer in the parking lot of a nearby hospital. Then,
the group traveled to Georgia in a borrowed Yukon
Denali sport-utility vehicle. Smith bought a plane
ticket for a flight that would leave the next day.
The next morning, they drove to the airport where
a federal marshal, who had been on the lookout for
the group, spotted the Yukon. After following the
Yukon for a while, the federal marshal stopped the
vehicle, and Smith, Foster, and Ledlow were taken
into custody. Ledlow told law-enforcement officials
that she had heard Smith talking on the phone to
Thompson while they were in the vehicle and that she
believed that the victim could be located in the woods
off a particular road where he had been thrown over a
guardrail.
Based on the information Ledlow provided, lawenforcement officers searched for Kevin along a road
in Cherokee County. On the evening of April 22, 2011,
they located Kevin’s body down a steep embankment.
He was not wearing shoes and he had sustained a
deep laceration to his throat. Kevin also had suffered
four stab wounds to his chest, a hip fracture, and
extensive bruising on his face and body; duct tape
was around his chin, mouth, and hands. The autopsy
performed on Kevin’s body confirmed that Kevin died
as a result of multiple stab wounds.
Investigators who had responded to Foster’s mother’s
house to retrieve and process Kevin’s vehicle found a
1987 Dodge Ram truck in the yard. The truck did not
have a motor and appeared to have been there for an
extended period of time. One of the investigators
noticed a trash bag sitting on a trash pile in the bed of

6a
the truck. Inside the trash bag was an empty brown
wallet and various identification cards and credit
cards belonging to Kevin. Also inside the trash bag
was a plastic bag from Hibbett Sporting Goods, on
which Thompson’s fingerprint was found.
Smith’s Explorer was located nearby in a parking
lot. The vehicle was processed, and three areas inside
the Explorer tested positive for the presumptive
presence of blood. Blood stains from the front side
of the rear passenger’s seat and the interior panel of
the rear passenger’s door on the driver’s side contained
a mixture of DNA, with the major component being
that of the victim. A search of the house where Ledlow
lived, and at which Smith routinely spent the night,
revealed a pair of men’s black, Coogi jeans that had
dried mud on them. The left and right rear leg of the
jeans had Kevin’s DNA on them. A pair of white men’s
boxers containing Smith’s DNA was found near the
jeans. Inside a trash can, investigators found a steak
knife wrapped in a shirt that had blood on it and the
victim’s DNA. A pair of Air Jordan shoes was inside
the trash can, and one of the shoes had the victim’s
DNA on the outstep of the shoe. A roll of duct tape
was also found, which was later determined to share
consistent similarities in the manufacturing details of
the duct tape found on Kevin’s body. The investigation
indicated that Smith had stopped at a gas station the
night of Kevin’s abduction and purchased a roll of
duct tape.
After law-enforcement officials connected Smith
and Gaston to the crime, Smith and Gaston admitted
their involvement in Kevin’s abduction; however, both
men attempted to marginalize their roles in Kevin’s

7a
murder. Thompson was initially arrested for the
fraudulent use of Kevin’s credit card. During his
first interview, Thompson denied any involvement in
Kevin’s abduction and subsequent murder. While in
jail, Thompson indicated that he wanted to speak with
Officer Allen George with whom he was acquainted.
During interviews with Officer George, Thompson
admitted being present during Kevin’s abduction and
murder but claimed that he was an unwilling participant and placed the blame on Smith and Gaston.
3

During trial, Cheryl Bush, Thompson’s girlfriend,
testified that while she was sleeping the night of
April 21, 2011, Thompson called her and mentioned
“something about a debit card or a credit card.” (R.
1670.) Cheryl thought it was odd for Thompson to
ask about a card because Thompson did not possess
one as far as she knew. Cell-phone records revealed
that during the night of April 21, 2011, numerous
calls and texts were made among Smith, Thompson,
and Gaston. During the attempted withdrawals,
Thompson sent the following text messages to Smith:
“Have you tried the card yet?” and “Cool, get what you
can and we go from there.” (R. 1862, 1864.) Cell-phone
data indicated that the men appeared to be at the
same location during many of these exchanges and
that they appeared to be in separate vehicles during

3

Smith and Gaston were both convicted of two counts of
capital murder and sentenced to death. On appeal from their convictions, finding that improper victim-impact testimony was erroneously admitted during the penalty phase, this Court reversed
the death sentences and ordered the circuit court to conduct
new penalty proceedings. Smith v. State, 246 So. 3d 1086 (Ala.
Crim. App. 2017); Gaston v. State, 265 So. 3d 387 (Ala. Crim. App.
2018).

8a
others. From 1:02 a.m. to 5:08 a.m., however, there
was no activity on the men’s cell phones.
After Thompson’s arrest, Bush, Thompson’s girlfriend, disposed of Thompson’s personal items in a
trash can. On April 25, 2011, a law-enforcement
official went to Bush’s residence and searched the residence, including the trash can. Inside the trash can
were several items of clothing, envelopes bearing
Thompson’s name, citations issued to Thompson by
the Anniston Police Department, packaging from a
cell phone purchased in February, a receipt from the
purchase of a pistol Thompson had purchased two
months prior, and bullets. A pair of undershorts
containing Thompson’s blood was also found in the
trash can.
I.
Thompson argues that the circuit court erred when
it held a pretrial hearing requiring him to prove his
affirmative defense of not guilty by reason of mental
disease or defect. Thompson contends that he should
have been allowed to present evidence in support of
his defense at trial and then have the issue submitted
to the jury. Thompson further argues, in the alternative, that the circuit court used the incorrect standard
and that he met his burden under the correct standard
by presenting some evidence that his mental defect
affected his ability to appreciate the criminality of
his conduct or to conform his conduct to the requirements of law. This Court, however, disagrees.
“ ‘The question of whether there is any evidence to substantiate a plea of insanity is a
question of law for the court. Knight v. State,
273 Ala. 480, 489, 142 So.2d 899 (1962);
McKinnon v. State, 405 So. 2d 78, 80 (Ala.

9a
Cr. App. 1981). Where there is no evidence to
establish the plea of insanity, the trial judge
may instruct the jury that there is no evidence which would justify a finding of not
guilty by reason of insanity and remove that
issue from their consideration. Griffin v.
State, 284 Ala. 472, 475, 225 So. 2d 875
(1969); Walker v. State, 269 Ala. 555, 114 So.
2d 402 (1959). “The trial court should not
submit the issue of insanity to the jury unless
there is evidence to sustain the plea.”
Darrington v. State, 389 So. 2d 189, 190 (Ala.
Cr. App. 1980). Requested charges submitting the defense of insanity to the jury are
properly refused where there is no evidence
tending to show that the accused was insane.
Snead v. State, 251 Ala. 624, 628, 38 So. 2d
576 (1949); Pilley v. State, 247 Ala. 523, 528,
25 So. 2d 57 (1946); Johnson v. State, 247 Ala.
271, 275, 24 So. 2d 17 (194[5]); Johnson v.
State, 169 Ala. 10, 12, 53 So. 769 (1910);
Connell v. State, 56 Ala. App. 43, 51-52, 318
So. 2d 782, reversed on other grounds, 294
Ala. 477, 318 So. 2d 710 (1974); Smith v.
State, 32 Ala. App. 209, 211, 23 So. 2d 615,
cert. denied, 247 Ala. 225, 23 So. 2d 617
(1945).
“ ‘In determining whether there was sufficient evidence of insanity to warrant the
submission of that issue to the jury the trial
judge must decide if there was any evidence
of legal insanity. That is, was there any evidence that the defendant, at the time of the
crime, lacked the substantial capacity as a
result of mental disease or defect to appreciate the criminality of his conduct or to con-

10a
form his conduct to the requirements of law.
Alabama Code 1975, Section 13A-3-1.[4]’
“Young [v. State], 428 So. 2d [155] at 160 [(Ala.
Crim. App. 1982)].”
Flowers v. State, 922 So. 2d 938, 955-56 (Ala. Crim.
App. 2005).
Prior to trial, Thompson was evaluated by Dr. Glen
King, a clinical psychologist, and Dr. Carol Walker, a
neuropsychologist, regarding Thompson’s diminished
capacity. After a pretrial hearing, the circuit court
found that Thompson suffered from an intellectual
disability rendering him ineligible for the death
penalty. At a later date, the State sought to prevent
Thompson from presenting evidence of his intellectual disability to the jury. The State contended that
the fact that Thompson had an intellectual disability
did not also establish that he was unable to appreciate
the criminality of his conduct or to conform his conduct to the requirements of the law. The State also
argued that the defense of diminished capacity to
negate an offense’s intent was not recognized as a
defense in Alabama.
On July 9, 2019, the circuit court held a pretrial
hearing to determine whether Thompson would be
allowed to present his affirmative defense of not guilty
by severe mental disease or defect to the jury. At the
hearing, Dr. King testified that Thompson was intellectually disabled but that, in his opinion, at the time
of the offense, Thompson “understood the nature and
quality of . . . his actions and the wrongfulness of his
acts.” (S.R. 700-01.) Dr. King testified that he came to
this conclusion
“because of the nature of the offense. It [wa]s
premeditated. It was goal directed. It was

11a
pecuniary interest. The attempt to avoid
apprehension and detection. All of those are
for me indications of understanding of what
you’re doing wrong at the time and trying to
avoid apprehension and detection.”
(S.R. 702.) Dr. King also stated that an individual
claiming to be not guilty by reason of mental disease
or defect has to admit the conduct and assert that it
was mentally defective; Thompson told King that he
did not commit the offenses.
Dr. Walker testified that Thompson had an intellectual disability, which is considered a mental defect;
however, Dr. Walker would not give an opinion regarding whether Thompson’s mental defect prevented him
from appreciating the wrongfulness of his action or to
conform his actions to the law.
The circuit court disallowed Thompson’s mentaldefect defense to be presented by the jury. In its order,
the circuit court stated, in pertinent part:
“The testimony of both experts . . . indicated
[Thompson] had a mental defect. The mental
defect was moderate intellectual disability,
which was formerly called mental retardation.
“This Court previously accepted the reports
and opinions of the experts and accordingly
ruled that [Thompson] had a moderate intellectual disability. The significance of that
ruling was that, under the current death penalty law, the death penalty cannot be imposed
as a punishment if [Thompson] were to be
convicted by a jury.
“. . . .

12a
“Intellectual disability does not equate to
insanity under the law. An intellectual disability standing alone is not a defense to
criminal conduct. The law requires that the
intellectual disability is so severe that it
prevents the person from appreciating the
nature and quality or wrongfulness of his
conduct. [Thompson] has failed to prove by
clear and convincing evidence that the jury
should consider his insanity defense. Section
13A-3-1 (Code of Ala. 1975).
“Any evidence of mental disability that
does not rise to the level of legal insanity
does not go to the jury for consideration. This
is a matter of law to be decided by the Court.
Young v. State, 428 So. 2d 155 (Ala. Crim.
App. 1982). ‘In determining whether there
is sufficient evidence of insanity to warrant
the submission of that issue to the jury, the
trial judge must decide if there is evidence
of legal insanity.’ Anderson v. State, 507 So.
2d 580, 1987. There is a two prong test the
trial court must use to make this determination: 1) Whether there is any evidence that
the Defendant, at the time of the crime,
lacked the substantial capacity as a result of
mental disease or defect; and 2) Whether
the Defendant’s mental disease or defect
resulted in his lack of ability to appreciate
the criminality of his conduct or to conform
his conduct to the requirements of the law.
The Defendant has the burden of proving that
the insanity defense should be presented to
the jury by clear and convincing evidence.
Ware v. State, 584 So. 2d 939, 1991 (Ala.
Crim. App.). [Thompson] has failed to prove

13a
by clear and convincing evidence that the
[he] suffers from serious mental disease or
defect that prevented him from appreciating
the nature and quality or wrongfulness of his
acts.”
(C. 1141-42.)4
Even when the evidence presented is viewed in the
light most favorable to Thompson, there is no indication that Thompson’s intellectual disability prevented him from understanding the wrongfulness of
his conduct. Because there is no evidence to support
the defense of not guilty by mental disease or defect,
the circuit court did not abuse its discretion in refusing
to allow evidence of Thompson’s intellectual disability
to be presented at trial or in refusing to submit the
defense to the jury. Although the circuit court used
the “clear and convincing” standard instead of the
applicable “some evidence” standard, any error in
applying that standard was harmless because, again,
there was no evidence to support Thompson’s defense
of not guilty by reason of mental disease or defect.
Further, to the extent that Thompson sought to
use his intellectual disability to negate any intent to
commit the offenses, as the State correctly argued at
the pretrial hearing, a defense of diminished capacity
is not permitted by Alabama law. In Williams v. State,
710 So. 2d 1276 (Ala. Crim. App. 1996), aff’d, 710 So.
2d 1350 (Ala. 1997), this Court stated:
“The doctrine of diminished capacity provides that evidence of an abnormal mental
4

Section 13A-3-1, Ala. Code 1975, provides that the defendant
has the burden of proving the defense of insanity by clear and
convincing evidence.

14a
condition not amounting to legal insanity but
tending to prove that the defendant could not
or did not entertain the specific intent or
state of mind essential to the offense should
be considered in determining whether the
offense charged or one of a lesser degree was
committed. 22 C.J.S., Criminal Law § 97
(1989). See also W. LaFave and A. Scott, Substantive Criminal Laws, § 4.7 ( 1986) (noting
that the doctrine of diminished capacity is
recognized in some jurisdictions). Alabama
has expressly rejected this doctrine. Barnett
v. State, 540 So.2d 810 (Ala. Cr. App. 1988);
Hill v. State, 507 So. 2d 554 (Ala. Cr. App.
1986), cert. denied, 507 So. 2d 558 (Ala. 1987);
Neelley v. State, 494 So.2d 669 (Ala. Cr. App.
1985), aff’d, 494 So. 2d 697 (Ala. 1986), cert.
denied, 480 U.S. 926, 107 S. Ct. 1389, 94 L.
Ed. 2d 702 (1987). A state is not constitutionally compelled to recognize the diminished
capacity doctrine. Campbell v. Wainwright,
738 F.2d 1573 (11th Cir. 1984); Muench v.
Israel, 715 F. 2d 1124 (7th Cir. 1983), cert.
denied, Worthing v. Israel, 467 U.S. 1228, 104
S. Ct. 2682, 81 L. Ed. 2d 878 (1984); Chestnut
v. State, 538 So.2d 820 (Fla. 1989).”
710 So. 2d at 1309. See also Jones v. State, 946 So. 2d
903, 927 (Ala. Crim. App. 2006). In Barnett v. State,
540 So. 2d 810 (Ala. Crim. App. 1988), this Court
stated:
“ ‘The rule applied in this jurisdiction is
sometimes referred to as the “all-or-nothing”
approach.” Hill [v. State], 507 So. 2d [554,]
556 [(Ala. Crim. App. 1986)]. Under this
approach, a ‘defendant must either establish

15a
his insanity as a complete defense to or
excuse for the crime, or he must be held to
full responsibility for the crime charged.’
Annot., 22 A.L.R.3d 1228, § 4 at 1236 (1968).”
540 So. 2d at 812.
Because Thompson did not present evidence sufficient to submit a defense of not guilty by reason of
mental disease or defect to the jury and because the
doctrine of diminished capacity is a defense not
recognized in Alabama, evidence of Thompson’s intellectual disability was not relevant to any issue at
trial. See Rule 401, Ala. R. Evid. Thus, the circuit court
properly refused to allow the admission of this
evidence at trial. See Rule 402, Ala. R. Evid. The fact
that the circuit court held a pretrial hearing to
determine whether the jury would consider the issue
is of no consequence. Although a circuit court generally determines during trial whether a defendant has
met both prongs of the test required for presentation
to the jury, this Court knows of no authority that
prevents a circuit court from addressing this matter
prior to trial. Further, Thompson has made no specific
showing of evidence that he was unable to present
prior to trial; therefore, he has not shown how he has
been prejudiced by a pretrial determination on the
matter. Accordingly, Thompson is not entitled to any
relief on this issue.
II.
Thompson argues that the circuit court “deprived
[him] of his right to confront witness testimony
against him by denying him his right to cross-examine
Dr. Ward, the doctor [who] performed and authored
the autopsy of Kevin Thompson.” (Thompson’s brief,
at 46.) At the time of trial, Dr. Emily Ward, who

16a
performed the autopsy, had retired and could not be
located. The circuit court allowed Dr. Steven Frank
Dunton, a medical examiner who had reviewed the
report and autopsy photographs, to testify as an expert
regarding his independent conclusions as to the cause
and manner of death. According to Thompson, he
objected to the introduction of the autopsy report
without the opportunity to cross examine the doctor
who performed the autopsy. Thompson claims that the
circuit court should not have allowed Dr. Dunton, who
had not performed the autopsy and had not been
present during the autopsy, to testify about the report.
By allowing Dr. Dunton to testify about the autopsy
report, Thompson argues, the circuit court violated the
Confrontation Clause.
“In Perkins v. State, 897 So. 2d 457 (Ala.
Crim. App. 2004), we held that it was not a
violation of the Confrontation Clause to admit
an autopsy report without the medical
examiner’s testimony or testimony indicating
that he or she was not available. We stated:
“ ‘In Crawford v. Washington, 541
U.S. 36, 124 S. Ct. 1354, 158 L. Ed.
2d 177 (2004), the United States
Supreme Court held that the admission of a wife’s out-of-court statements to police officers, regarding an
incident in which the defendant, her
husband, allegedly stabbed the
victim, violated the Confrontation
Clause. The Supreme Court stated
that an out-of-court statement by a
witness that is testimonial is barred
under the Confrontation Clause,
unless the witness is unavailable

17a
and the defendant had a prior opportunity to cross-examine the witness,
regardless of whether such statement is deemed reliable by the trial
court, abrogating its previous holding in Ohio v. Roberts [, 448 U.S. 56,
100 S. Ct. 2531, 65 L. Ed. 2d 597
(1980)]. While the Supreme Court
applied a stricter standard to the
admission of testimonial hearsay,
however, it did not do so with regard
to nontestimonial hearsay, noting:
“ ‘ “Where nontestimonial
hearsay is at issue, it is
wholly consistent with the
Framers’ design to afford
the States flexibility in
their development of hearsay law — as does Roberts,
and as would an approach
that exempted such statements from Confrontation
Clause scrutiny altogether.”
“ ‘541 U.S. at 68, 124 S. Ct. at 1374,
158 L. Ed. 2d at 203.
“ ‘Unlike the hearsay in Crawford
v. Washington, the hearsay at issue
in this case is nontestimonial in
nature — an autopsy report on the
victim, Wysteria Mathews. As the
Court noted in White [v. Illinois, 502
U.S. 346, 112 S. Ct. 736, 116 L. Ed.
2d 848 (1992)]: “[w]here [the] proffered hearsay has sufficient guarantees of reliability to come within a

18a
firmly rooted exception to the hearsay rule, the Confrontation Clause is
satisfied.” 502 U.S. at 356.
“ ‘Both Alabama and federal
caselaw have recognized that the
business records exception is a firmly rooted exception to the hearsay
rule. See, e.g., McNabb v. State, 887
So. 2d 929, 969 (Ala. Crim. App.
2001); Ohio v. Roberts, 448 U.S. at 66
n. 8, 100 S. Ct. 2531. Moreover,
under Alabama law, “An autopsy
report made in the regular course
of business is admissible under the
business records exception.’ 2 Charles
W. Gamble, McElroy’s Alabama
Evidence § 254.01(18) (5th ed. 1996)
(footnote omitted). See also Adams v.
State, 955 So. 2d 1037, 1072-73 (Ala.
Crim. App. 2003); Baker v. State,
473 So. 2d 1127, 1129 (Ala. Crim.
App. 1984). The results of Dr.
Embry’s autopsy and the supporting
materials are business records,
which bear the earmark of reliability
or probability of trustworthiness and
further the “‘integrity of the factfinding process,’ “see Coy v. Iowa,
487 U.S. 1012, 1020, 108 S. Ct. 2798,
101 L. Ed. 2d 857 (1988) (quoting
Kentucky v. Stincer, 482 U.S. 730,
736, 107 S. Ct. 2658, 96 L. Ed. 2d 631
(1987)) . . . .”
“897 So. 2d at 463-65. See Gobble v. State,
104 So. 3d 920 (Ala. Crim. App. 2010); Sharifi

19a
v. State, 993 So. 2d 907 (Ala. Crim. App.
2008). See also Annot., Evidence — Confrontation Clause — Second Circuit Holds that
Autopsy Reports are not Testimonial Evidence — United States v. Feliz, 467 F.3d 227
(2d Cir. 2006), 120 Harv. L. Rev. 1707, 1714
(2007). In Thompson’s case, the admission of
the autopsy reports, which were nontestimonial in nature, did not implicate the Confrontation Clause or Crawford v. Washington,
541 U.S. 36, 124 S. Ct. 1354, 158 L. Ed. 2d 177
(2004).
Thompson v. State, 153 So. 3d 84, 128-29 (Ala. Crim.
App. 2012).
Thompson relies on this Court’s holding in Smith v.
State, 898 So. 2d 907 (Ala. Crim. App. 2004), in support of his argument that the autopsy report in this
case was testimonial. Indeed, in Smith this Court held
that the admission of an autopsy report without the
testimony of the medical examiner who performed the
autopsy was a violation of the Confrontation Clause
when the report proved an essential element of the
crime charged. Specifically, this Court explained:
“The cause of death in this case [Smith v.
State] was a crucial element of the charge
against Smith. Without presentation of testimony from the autopsy regarding the cause
of death, the prosecution would have failed to
establish an element alleged in the indictment. By introducing the records of the
autopsy without providing Smith with the
opportunity to cross-examine the one forensic
pathologist who had observed the body and its
wounds and who had conducted the tests on
the body, the prosecution was permitted to

20a
prove an essential element of the crime
without providing Smith with an opportunity
to cross-examine the pathologist who originally reached the conclusion that Stumler
died of asphyxiation. Under the facts of this
case, the Confrontation Clause precluded the
prosecution from proving an essential element of its case by hearsay evidence alone.”
Smith v. State, 898 So. 2d 907, 917 (Ala. Crim. App.
2004).
Yet, even if an autopsy report is deemed testimonial,
the Confrontation Clause may still be satisfied. For
example, in Ex parte Ware, 181 So. 3d 409 (Ala. 2014),
the State presented testimony of the supervising doctor who reviewed and participated in the testing and
analysis of a DNA-profile report. The supervising
doctor signed the DNA-profile report and initialed
each page for the case file “taking responsibility for
the work that resulted in the report and that he had
reviewed each of the analyses undertaken.” Ware at
417. In Ware, the Supreme Court held that the Confrontation Clause was satisfied, reasoning that the
doctor’s testimony provided Ware with the opportunity
to cross-examine “any potential errors or defects in
the testing and analysis, including errors committed
by other analysts who had worked on the case.” Id.
Initially, this Court notes that the autopsy report
was already in evidence before Dr. Dunton’s testimony. The autopsy report was admitted, without
objection, through the testimony of Gerald Howard, a
pathology supervisor who assisted Dr. Ward during
the autopsy.
Moreover, there was no violation of the Confrontation Clause. Although another medical examiner

21a
performed Kevin’s autopsy and drafted the report,
Howard was present and participated in Kevin’s
autopsy. Additionally, as the supervisor, he reviewed
the work and autopsy report before it was released. As
in Ware, Thompson had the opportunity to cross
examine Howard for “any potential errors or defects
in the testing and analysis, including errors committed by other [doctors] who had worked on the case.”
Thus, the confrontation clause was satisfied, and the
circuit court did not err in allowing the admission of
the autopsy report. Furthermore, Dr. Dunton testified
that, based on his review of the physical evidence
documented at the autopsy, he independently determined that Kevin died of multiple stab wounds.
Finally, Kevin’s cause of death was not in dispute.
Thus, even if the circuit court had erred in admitting
the autopsy report, the error would have been harmless. See, e.g., Sharifi v. State, 993 So. 2d 907 (Ala.
Crim. App. 2008) (holding that the admission of
autopsy report, even if error, was harmless where
defendant never contested the cause of death, but
presented alibi defense); Smith v. State, supra.
Thompson is not entitled to any relief on this claim.
III.
Thompson contends that the State was improperly
allowed to introduce victim-impact evidence during
the guilt phase of the trial. Specifically, Thompson
refers to testimony given by Joycelyn PalmoreHaynes, a friend of the victim’s mother, in which she
described the effect Kevin’s disappearance and subsequent death had on Curry, who had since passed away.
Palmore-Haynes testified that she was with Curry
during much of the time Kevin was missing, and when
the prosecutor asked her what effect Kevin’s death
had on Curry, she testified, over Thompson’s objection,

22a
that she “watched [her] friend die [from] the loss of
her son.” (R. 1076-78.) Thompson argues on appeal
that the testimony was not relevant to any material
question before the jury and was more prejudicial than
probative.
“ ‘ “It is well settled that
victim-impact statements
‘are admissible during the
guilt phase of a criminal
trial only if the statements
are relevant to a material
issue of the guilt phase.
Testimony that has no
probative value on any
material question of fact
or inquiry is inadmissible.’
Ex parte Crymes, 630 So.
2d 125, 126 (Ala. 1993),
citing Charles W. Gamble,
McElroy’s Alabama Evidence, § 21.01 94th ed. 1991).
However, ‘when, after considering the record as a
whole, the reviewing court
is convinced that the jury’s
verdict was based on the
overwhelming evidence of
guilt and was not based on
any prejudice that might
have been engendered by
the improper victim-impact
testimony, the admission of
such testimony is harmless
error.’ Crymes, 630 So. 2d at
126.

23a
“ ‘Jackson v. State, 791 So. 2d 979,
1011 (Ala. Crim. App. 2000).’
“Gissendanner v. State, 949 So. 2d 956, 965
(Ala. Crim. App. 2006). ‘[T]he introduction of
victim impact evidence during the guilt phase
of a capital murder trial can result in reversible error if the record indicates that it
probably distracted the jury and kept it from
performing its duty of determining the guilt
or innocence of the defendant based on the
admissible evidence and the applicable law.’
Ex parte Rieber, 663 So. 2d 999, 1006 (Ala.
1995). However, ‘a judgment of conviction can
be upheld if the record conclusively shows
that the admission of the victim impact
evidence during the guilt phase of the trial
did not affect the outcome of the trial or
otherwise prejudice a substantial right of the
defendant.’ Id. at 1005.”
Shanklin v. State, 187 So. 3d 734, 781 (Ala. Crim. App.
2014).
“This Court has repeatedly refused to find reversible
error in the admission of limited victim-impact evidence in the guilt phase of a capital-murder trial.”
Bohannon v. State, 222 So. 3d 457, 499 (Ala. Crim.
App. 2015) (citations omitted). Given the evidence
presented at trial and the circuit court’s instructions
to the jury, this Court concludes that the introduction
of Palmore-Haynes’s testimony, even if error, did not
affect the outcome of the trial or otherwise prejudice
a substantial right of Thompson. Thus, any error in
the admission of the evidence was harmless. See
Shanklin, supra.

24a
IV.
Thompson contends that the circuit court erred
when it admitted items5 found inside a trash can
outside the house of Thompson’s girlfriend. Thompson
argues, as he did at trial, that the items were not
relevant to the case and that, even if the items were
relevant, their probative value was substantially
outweighed by the danger of unfair prejudice.
Rule 401 Ala. R. Evid., defines relevant evidence as
“evidence having any tendency to make the existence
of any fact that is of consequence to the determination
of the action more probable or less probable than it
would be without the evidence.” Although relevant
evidence is admissible, Rule 403, Ala. R. Evid., states
it “may be excluded if its probative value is substantially outweighed by the danger of unfair prejudice,
confusion of the issues, or misleading the jury, or by
considerations of undue delay, waste of time, or needless presentation of cumulative evidence.” “Questions
of materiality and relevance of the evidence lie within
the sound discretion of the trial court.” Smith v. State,
698 So. 2d 189, 206 (Ala. Crim. App. 1996) (citing
McMahon v. State, 560 So. 2d 1094, 96 (Ala. Crim.
App. 1989)).
The items referenced at trial were part of an
inventory of items collected from the trash can during
a search for evidence connecting Thompson to the
offenses. As Thompson argues, the evidence was not
connected to Kevin’s murder; however, the evidence
was mentioned to show that law-enforcement officers
had conducted a search of items belonging to Thompson
5

The trash can contained, among other things, a pair of boxer
shorts with a blood stain, a receipt from the purchase of a
handgun, and bullets.

25a
and what items were found. As such, evidence of the
search was relevant to demonstrate the thoroughness
of the investigation of the crime. Further, Thompson
has failed to establish that the evidence’s probative
value was substantially outweighed by the danger of
unfair prejudice. This Court holds that the circuit
court did not abuse its discretion in admitting the
evidence found in the trash can. Therefore, Thompson
is not entitled to any relief on this claim.
V.
Thompson argues that the evidence was insufficient
to sustain his convictions. Specifically, Thompson
contends that the State failed to prove that he shared
Smith and Gaston’s intent to murder Thompson.
“With respect to the sufficiency-of-theevidence claim, it is well settled that ‘ “[i]n
determining the sufficiency of the evidence to
sustain a conviction, a reviewing court must
accept as true all evidence introduced by the
State, accord the State all legitimate inferences therefrom, and consider all evidence in
a light most favorable to the prosecution.” ’
Ballenger v. State, 720 So. 2d 1033, 1034 (Ala.
Crim. App. 1998), quoting Faircloth v. State,
471 So. 2d 485, 488 (Ala. Crim. App. 1984),
aff’d, 471 So. 2d 493 (Ala. 1985). “The test
used in determining the sufficiency of evidence to sustain a conviction is whether,
viewing the evidence in the light most favorable to the prosecution, a rational finder of
fact could have found the defendant guilty
beyond a reasonable doubt.” ’ Nunn v. State,
697 So. 2d 497, 498 (Ala. Crim. App. 1997),
quoting O’Neal v. State, 602 So. 2d 462, 464
(Ala. Crim. App. 1992). ‘ “When there is legal

26a
evidence from which the jury could, by fair
inference, find the defendant guilty, the trial
court should submit [the case] to the jury,
and, in such a case, this court will not disturb
the trial court’s decision.” ’ Farrior v. State,
728 So. 2d 691, 696 (Ala. Crim. App. 1998),
quoting Ward v. State, 557 So. 2d 848, 850
(Ala. Crim. App. 1990). ‘The role of appellate
courts is not to say what the facts are. Our
role . . . is to judge whether the evidence is
legally sufficient to allow submission of an
issue for decision [by] the jury.’ Bankston v.
State, 358 So. 2d 1040, 1042 (Ala. 1978).”
Williams v. State, 10 So. 3d 1083, 1086 (Ala. Crim.
App. 2008).
“‘Circumstantial evidence is not inferior evidence, and it will be given the
same weight as direct evidence, if it,
along with the other evidence, is
susceptible of a reasonable inference
pointing unequivocally to the defendant’s guilt. Ward v. State, 557 So. 2d
848 (Ala. Cr. App. 1990). In reviewing a conviction based in whole or in
part on circumstantial evidence, the
test to be applied is whether the
jury might reasonably find that the
evidence excluded every reasonable
hypothesis except that of guilt; not
whether such evidence excludes every
reasonable hypothesis but guilt, but
whether a jury might reasonably so
conclude. Cumbo v. State, 368 So. 2d
871 (Ala. Cr. App. 1978), cert. denied,
368 So. 2d 877 (Ala. 1979).’

27a
“Ward [v. State], 610 So. 2d [1190] at 1191-92
[(Ala. Crim. App. 1992 )].”
Lockhart v. State, 715 So. 2d 895, 899 (Ala. Crim. App.
1997).
Thompson was indicted for capital murder committed during the course of a kidnapping, see § 13A-540(a)(1), Ala. Code 1975, and capital murder during
the course of a robbery, see § 13A-5-40(a)(2), Ala. Code
1975. To sustain convictions for both of those capital
offenses under § 13A-5-40(a), Ala. Code 1975, the
State was required to prove beyond a reasonable doubt
that Thompson committed an “intentional murder,” as
that term is defined by § 13A-6-2, Ala. Code 1975,
during the course of a kidnapping in the first degree,
as defined by § 13A-6-43(a), Ala. Code 1975, and
during the course of a robbery in the first degree, as
defined by § 13A-8-41, Ala. Code 1975. See §§ 13A-540(a)(1) and (a)(2), Ala. Code 1975.
Thompson does not dispute that he was with Smith
and Gaston on the evening of Kevin’s abduction and
murder. He claims, however, that he was an unwilling
participant to the events. Thus, Thompson does not
appear to dispute that Kevin was murdered during the
course of a kidnapping and robbery. Thompson
contends only that he did not intend for Kevin to be
murdered.
Under § 13A-6-2(a)(1), Ala. Code 1975, a person
commits an intentional murder if, “with [the] intent
to cause the death of another person, he or she causes
the death of that person or of another person.” When
considering whether the State provided sufficient
evidence demonstrating the defendant had the requisite specific intent to kill, this Court has stated:

28a
“‘No defendant can be found guilty of a capital
offense unless he had an intent to kill, and
that intent to kill cannot be supplied by
the felony-murder doctrine.’ Ex parte Woodall,
730 So. 2d 652, 657 (Ala. 1998). However,
‘ “[i]ntent, . . . being a state or condition of
the mind, is rarely, if ever, susceptible of
direct or positive proof, and must usually be
inferred from the facts testified to by witnesses and the circumstances as developed
by the evidence.” ’ Seaton v. State, 645 So. 2d
341, 343 (Ala. Crim. App. 1994) (quoting
McCord v. State, 501 So. 2d 520, 528-29 (Ala.
Crim. App. 1986)). Intent ‘ “ ‘may be inferred
from the character of the assault, the use of a
deadly weapon and other attendant circumstances.’ “ ‘ Farrior v. State, 728 So. 2d 691,
695 (Ala. Crim. App. 1998) (quoting Jones v.
State, 591 So. 2d 569, 574 (Ala. Crim. App.
1991), quoting in turn Johnson v. State, 390
So. 2d 1160, 1167 (Ala. Crim. App. 1980)).
‘ “The intent of a defendant at the time of
the offense is a jury question.” ’ C.G. v. State,
841 So. 2d 281, 291 (Ala. Crim. App. 2001),
aff’d, 841 So. 2d 292 (Ala .2002) (quoting
Downing v. State, 620 So. 2d 983, 985 (Ala.
Crim. App. 1993)). Indeed, ‘[w]hether the
accused possesses the intent to cause the
death of another person is a matter to be
determined by the jury.’ Paige v. State, 494
So. 2d 795, 796 (Ala. Crim. App. 1986).”
Morton v. State, 154 So. 3d 1065, 1080 (Ala. Crim.
App. 2013). “To affirm a finding of a ‘particularized
intent to kill,’ the jury must be properly charged on
the intent to kill issue, and there must be sufficient
evidence from which a rational jury could conclude

29a
that the defendant possessed the intent to kill.”
Gamble v. State, 791 So. 2d 409, 444 (Ala. Crim. App.
2000).
A person may be held legally accountable for the
behavior of another which constitutes a criminal
offense if, with the intent to promote or assist the
commission of the offense, he aids or abets the other
person in committing the offense. § 13A-2-23, Ala.
Code 1975. “Aid and abet comprehend all assistance
rendered by acts or words of encouragement or support or presence, actual or constructive, to render
assistance should it become necessary.” Turner v.
State, 674 So. 2d 1371, 1376 (Ala. Crim. App. 1995)
(citations omitted). A defendant’s complicity is a
question for the jury. Wright v. State, 494 So. 2d 936,
937 (Ala. Crim. App. 1986). In Wigfall v. State, 710 So.
2d 931 (Ala. Crim. App. 1997), this Court stated:
“An accused’s participation can be resolved
by the jury through inferences from facts
regarding the accused’s companionship with
the other actors, and the accused’s conduct
before, during, and after the commission of
the act. Watkins [v. State], 551 So. 2d [421] at
423-24 [(Ala. Crim. App. 1988)]. Once a prima
facie case is established, the jury’s decision
concerning the extent of the accused’s
participation cannot be disturbed on appeal.
See Nguyen v. State, 547 So.2d 582, 592 (Ala.
Cr.App.1988).”
Wigfall, 710 So. 2d at 938.
Evidence was presented at trial that on April 20,
2011, Thompson called Kevin with whom he was
acquainted and then went to his apartment. Thompson
brought Smith and Gaston with him, whom Kevin

30a
did not know and did not expect. Apparently, the
men’s presence made Kevin uncomfortable as his
demeanor changed when they arrived at his apartment. Thompson was shown to be present at one of the
ATMs when Kevin’s debit card was used while Kevin
was being held at gunpoint in his vehicle. At one point
Thompson drove Smith’s Explorer, separate from the
others who were in Kevin’s vehicle. Thompson
remained with the men as the men drove Kevin out of
town. During the hours between Kevin’s abduction
and his murder, Thompson remained with Gaston
and Smith and never once attempted to render aid to
Kevin. Finally, any contention that Thompson was
forced to participate or that he was a victim is made
weaker by the fact that Thompson never contacted
the police and initially denied any involvement in the
crime. Further, Thompson drove Gaston home after
the murder and continued to contact Smith. Cellphone records indicated that during one of his interviews with law-enforcement officials, Thompson sent
a text message Smith about going to a restaurant later
that day.
In viewing the above evidence in the light most
favorable to the State, this Court concludes that the
evidence was sufficient for the jury to find that
Thompson shared a particularized intent to kill
Kevin. Therefore, the circuit court properly denied
Thompson’s motion for a judgment of acquittal.
Accordingly, the circuit court’s judgment is affirmed.
AFFIRMED..
Kellum, McCool, Cole, and Minor, JJ., concur.

31a
APPENDIX B
COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

[SEAL]

P.O. Box 301555
Montgomery, AL
36130-1555
(334) 229-0751
Fax (334) 229-0521

March 12, 2021
CR-18-1161
Tyrone Christopher Thompson v. State of Alabama
(Appeal from Calhoun Circuit Court: CC11-491)
NOTICE
You are hereby notified that on March 12, 2021, the
following action was taken in the above referenced
cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.
/s/ D. Scott Mitchell
D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc:

Hon. Debra H. Jones, Circuit Judge
Hon. Kim McCarson, Circuit Clerk
Adam Banks, Attorney - Pro Hac
Irisa Chen, Attorney - Pro Hac
Jennifer Lau, Attorney - Pro Hac
Benjamin Woodforde Maxymuk, Attorney
Ian Moore, Attorney - Pro Hac
Beth Slate Poe, Asst. Atty. Gen.
Sara Delene Rogan, Asst. Attorney General

32a
APPENDIX C
IN THE SUPREME COURT OF ALABAMA
[SEAL]
May 14, 2021
1200442
Ex parte Tyrone Christopher Thompson. PETITION
FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Tyrone Christopher
Thompson v. State of Alabama) (Calhoun Circuit
Court: CC-11-491; Criminal Appeals : CR-18-1161).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the
above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the
judgment indicated below was entered in this cause on
May 14, 2021:
Writ Denied. No Opinion. Sellers, J. - Parker, C.J.,
and Bolin, Wise, and Stewart, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court's
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of
Alabama, do hereby certify that the foregoing is a
full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said Court.
Witness my hand this 14th day of May, 2021.
/s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

